 DOE/IG-0546




                                  ACCOUNTING FOR SEALED
                               SOURCES OF NUCLEAR MATERIAL
          AUDIT               PROVIDED TO FOREIGN COUNTRIES
         REPORT




                                         MARCH 2002



 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                    U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                               March 20, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Accounting for Sealed
                          Sources of Nuclear Material Provided to Foreign Countries"

BACKGROUND

Through the Atomic Energy Act of 1954, the Department of Energy (Department) and its
predecessor agencies provided nuclear materials to foreign facilities as part of the Atoms
for Peace Program. While this program was designed to aid other nations in developing
their own nuclear energy capabilities, the materials provided, including fuel rods, sealed
sources, and raw materials, remained U.S. Government-owned. Beginning in the 1960s,
the U.S. discontinued its policy of lending the material, and began to transfer ownership
through sale or donation. However, according to Departmental records, the U.S.
Government still retained title to much of the nuclear material provided to foreign
entities.

The Department's Nuclear Materials Management and Safeguards System (NMMSS) was
designed, in part, to provide a system of accounting and control over source and special
nuclear materials. The Department also maintained a separate registry to account for and
track the location of "Sealed Sources." Sealed Sources, which contain nuclear or
radiological material, are packaged to be environmentally safe and are generally used for
calibration of radiation measuring and monitoring instruments in nuclear research and
development. The Sealed Source registry was discontinued in 1984.

In October 2001, the Office of Inspector General issued a report on Accounting for
Government-owned Nuclear Materials Provided to Non-Department Domestic Facilities
(DOE/IG-0529). That report found, among other things, that the Department could not
fully account for sealed sources of nuclear material loaned to domestic licensees. In view
of this finding and recent world events, we initiated this audit to determine whether the
Department could account for Government-owned sealed sources provided to foreign
countries.

RESULTS OF AUDIT

The Department could not fully account for the sealed sources of nuclear material lent to
foreign countries. The audit disclosed that the Department and its predecessor agencies
did not enforce requirements for reporting sealed source information to NMMSS and
                                             2


efforts to maintain a separate Sealed Source Registry were discontinued. In addition,
existing international safeguard controls over nuclear material did not fully address the
absence of reliable inventory information on sealed sources. Furthermore, available
information was inconsistent as to whether the U.S. continued to own the sources and
whether it was responsible for the final disposition of the nuclear materials.

These conditions led us to conclude that the oversight of radioactive sealed sources
provided by the U.S. to foreign entities was inadequate given current realities. This
raised concerns regarding the possible misuse of these radioactive sources, including the
potential for the development of radiological dispersal weapons. The International
Atomic Energy Agency (IAEA) has publicly acknowledged its concerns in this arena
including specific references to so-called "dirty bombs." Under the circumstances, we
concluded that the Department should work with the IAEA to ensure that the sealed
sources are properly controlled and that existing record systems are updated and
reconciled. In addition, the Department should promptly determine whether the U.S.
Government continues to own the sealed sources that were loaned to foreign facilities,
and determine their location and condition.

In addition, we found other discrepancies in NMMSS unrelated to sealed sources,
including material balances for foreign facilities that were classified as inactive, and
balances that were not logical and could not be reconciled. Responsible officials in the
Department of Energy, the Department of State, and the Nuclear Regulatory Commission
recognized these problems, but expressed confidence that the existing international
safeguards regime provides assurance that these materials would not be diverted for
unauthorized use. We did not independently confirm the sufficiency of the existing
procedures.

MANAGEMENT REACTION

The Director, Office of Security concurred with the recommendations and proposed
corrective actions to improve NMMSS data on sealed sources.

The Associate Administrator for Management and Administration, NNSA disagreed with
recommendations directed to the Office of Defense Nuclear Nonproliferation and some
of the conclusions in the draft report. The Associate Administrator recognized that
"While it is a good idea to be aware of the locations and conditions of any material, it is
not the current policy of the U.S. Government to track sealed sources once they are in the
control of foreign entities." Accordingly, the Associate Administrator pointed out that
implementation of our recommendations would require a change in Executive Policy and
international agreements.

The NNSA made valid points, but we feel that the audit report includes a sufficient
acknowledgment that tracking U.S. origin material after export has not been required.
However, the international community through the International Atomic Energy Agency
is moving towards actions that would improve regulatory control over sealed sources.
                                            3



We believe that the Department should use its infromation on the export of sealed sources
to assist the international community, to the extent practical, in establishing appropriate
regulatory controls.

Attachment

cc:    Deputy Secretary
       Chief of Staff
       Under Secretary for Energy, Science and Environment
       Administrator, National Nuclear Security Administration
       Director, Office of Security
       Deputy Administrator for Defense Nuclear Nonproliferation
ACCOUNTING FOR SEALED SOURCES OF NUCLEAR MATERIAL
PROVIDED TO FOREIGN COUNTRIES

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations ...................................................2


               Accounting for Government-owned Nuclear Material
               Sealed Sources Provided to Foreign Facilities

               Details of Finding .......................................................................3

               Recommendation and Comments .............................................6


               Appendices

               Other Matters .............................................................................9

               Countries Provided With U.S. Sealed Sources
               Containing Plutonium ...............................................................11

               Scope and Methodology...........................................................12

               Prior Reports ............................................................................13

               Management Comments ..........................................................14
OVERVIEW

INTRODUCTION AND   In 1954, Congress established, through the Atomic Energy Act (Act), a
OBJECTIVE          national priority to ensure the continued conduct of research and
                   development activities relating to nuclear theory, processes, materials,
                   and devices. Congress envisioned the use of nuclear and radioactive
                   material to advance the state of knowledge in medical, biological,
                   agricultural, health, and military venues. The Department of Energy
                   (Department), then known as the Atomic Energy Commission, was
                   encouraged to work with colleges, universities, hospitals, and other
                   organizations to carry out research in these areas.

                   Through an amendment to the Act, the Department loaned nuclear
                   materials, including sealed sources of nuclear material, to foreign
                   countries as part of the Atoms for Peace Program. The sealed sources
                   contained nuclear material that had been packaged to be
                   environmentally safe and were generally used for calibration of
                   radiation measuring and monitoring instruments and in nuclear research
                   and development. For example, the Department reported, in 1996, that
                   the U.S. had provided approximately 2 to 3 kilograms of plutonium,
                   mostly in the form of sealed sources, to foreign countries since the late
                   1950s. The sealed sources remained U.S. Government-owned.
                   Although the U.S. began to permit private ownership of nuclear
                   material in 1964, the U.S. continued to provide Government-owned
                   sealed sources of nuclear material into the 1970s. The U.S. is still
                   responsible for the final disposition of Government-owned sealed
                   sources.

                   The U.S. is required to maintain a system of accounting and control
                   over source and special nuclear materials and report data to the
                   International Atomic Energy Agency (IAEA) on nuclear materials
                   imported by and exported from the U.S. The Nuclear Materials
                   Management and Safeguards System (NMMSS) was designed to fulfill
                   these accounting, controlling, and reporting obligations for U.S.
                   supplied international nuclear materials. The Department and the
                   Nuclear Regulatory Commission (NRC) cosponsor the NMMSS, and it
                   is managed and operated by a Department contractor.

                   In October 2001, the Office of Inspector General issued a report on
                   Accounting for Government-owned Nuclear Materials Provided to Non-
                   Department Domestic Facilities (DOE/IG-0529). That report found,
                   among other things, that the Department could not fully account for
                   sealed sources of nuclear materials loaned to domestic licensees. In
                   view of this finding and recent world events, we initiated this audit to
                   determine whether the Department could account for Government-
                   owned sealed sources provided to foreign countries.


Page 1                                                        Introduction and Objective
CONCLUSIONS AND   We found that the Department could not fully account for the sealed
OBSERVATIONS      sources of nuclear material loaned to foreign countries. Specifically,
                  the Department did not maintain a database of sealed sources loaned to
                  foreign entities, which would identify their current location and
                  condition. Furthermore, we found that available information was
                  inconsistent as to whether the U.S. continued to own certain sources or
                  whether the Department was responsible for their final disposition.
                  Tracking and accounting for sealed sources and other nuclear materials
                  is important in order to (1) ensure that nuclear materials are used only
                  for peaceful purposes; (2) help protect nuclear materials from loss,
                  theft, or other diversion; (3) comply with international treaty
                  obligations; and (4) provide data to policymakers and other government
                  officials. While requirements set up by the Atomic Energy
                  Commission called for NMMSS to track sealed sources, these
                  requirements were not enforced. In addition, international agreements,
                  negotiated with countries receiving our material, do not allow for
                  continuing monitoring and tracking of nuclear material after export, or
                  provide for the necessary safeguards over all sealed sources.

                  Without controls in place to detail the location, condition, and
                  ownership of sealed sources located in foreign facilities, the
                  Department cannot effectively administer its nuclear materials
                  management program. Inaccurate inventory records limit the
                  Department's ability to detect stolen or lost material, and to effectively
                  carry out its responsibility to dispose of nuclear materials. Recent
                  world events have underscored the need to strengthen the control over
                  all nuclear materials, including sealed sources. Individually and
                  collectively, sealed sources represent a health, safety, and material
                  security concern. There is a need for the Department to work with the
                  IAEA to establish adequate regulatory oversight of radioactive sealed
                  sources in foreign countries.

                  This audit identified issues that management should consider when
                  preparing its year-end assurance memorandum on internal controls.
                  Appendix 1, the Other Matters section of this report, discusses
                  additional inventory anomalies that we noted with NMMSS data. The
                  Department should also consider these discrepancies when correcting
                  inventory balances. The Office of Inspector General is separately
                  reporting on the results of a review on the accountability and control of
                  sealed radioactive sources at Departmental facilities.


                                                        Signed
                                              Office of Inspector General


Page 2                                                    Conclusions and Observations
ACCOUNTING FOR GOVERNMENT-OWNED NUCLEAR MATERIAL
SEALED SOURCES PROVIDED TO FOREIGN FACILITIES

Sealed Sources Outside of   The Department does not have current information on the location and
the United States           condition of the sealed sources that it and its predecessor agencies
                            provided to foreign countries from the 1950s through the 1970s. In
                            addition, it has inconsistent historical data regarding the ownership of
                            the material.

                            Using the now defunct Sealed Source Registry, we determined that 536
                            Government-owned sealed sources, which contained plutonium, had
                            been provided to 33 different countries (see Appendix 2). We selected
                            data relating to six of the countries and compared Sealed Source
                            Registry records with the Department's official inventory records in
                            NMMSS. Although NMMSS data approximated information from the
                            Sealed Source Registry on material types, quantities, and recipients for
                            the sampled items, it did not contain information on the current location
                            of the sources. According to Office of Security officials, the last sealed
                            source transaction was entered into NMMSS in 1985. Accordingly,
                            there has been no update of the information to indicate whether the
                            sealed sources continued to be located at the initial recipient facility.

                            Since sealed sources contain radioactive materials that can deteriorate
                            over time, we also requested available data on the current condition of
                            the sources. However, neither the Sealed Source Registry nor NMMSS
                            contained records showing the condition of the sources or a designation
                            of who is responsible for the upkeep of the sources. Furthermore,
                            NMMSS data showed that ownership had been transferred to the
                            foreign entity while the Registry showed that the U.S. Government
                            continued to own the material. Neither the Department nor the
                            NMMSS operator could provide information to explain the discrepancy
                            in ownership of the sources or whether the U.S. is responsible for their
                            eventual disposition.

                            Subsequent to the completion of our fieldwork, an official from the
                            Office of Security informed us that they had begun a process to
                            reconcile ownership discrepancies. According to this official, a sample
                            of five transactions indicated that NMMSS was accurate with regard to
                            ownership. The reconciliation process, however, is still ongoing.

                            We discussed the absence of reliable data on the location and condition
                            of sealed sources with the NRC, the Department of State, and the
                            IAEA. None of these organizations maintained a record of loaned
                            sealed sources, nor could they identify, with any certainty, the location
                            and condition of the sources.




Page 3                                                                            Details of Finding
Control Over Sealed      In the early 1970s, in recognition of the need to have accurate inventory
Sources                  data on sealed sources, the Atomic Energy Commission required that
                         sealed sources of nuclear and special nuclear material be reported in
                         NMMSS. Currently, Department of Energy Order 474.1A requires that
                         nuclear material accounting systems provide accurate information
                         relating to receipts, transfers, inventories, and shipments of nuclear
                         materials sufficient to establish a complete audit trail from receipt
                         through disposition. The Order also establishes NMMSS as the
                         national nuclear materials database.

                         While other government agencies, such as the NRC and the
                         Departments of Commerce and State, share in the responsibility for
                         controlling exports and negotiating the agreements under which exports
                         are controlled, the Department is responsible for ensuring accurate
                         inventory data to meet the requirements of DOE Order 474.1A and
                         planning for the disposition of the material. Additionally, the
                         Department continues to own any loaned material and is responsible for
                         accepting the return and final disposition of the material.

Tracking Loaned Sealed   Accurate and current information on sealed sources provided to foreign
Sources                  countries does not exist because:

                                 (1) The Department and its predecessor agencies did not
                                     effectively monitor information on Government-owned
                                     sealed sources of nuclear materials exported to foreign
                                     countries;
                                 (2) International agreements limit the type of information
                                     foreign countries report to the U.S. on nuclear materials
                                     that have been provided by the U.S.; and,
                                 (3) The international safeguards controls that exist over other
                                     forms of nuclear materials do not fully apply to sealed
                                     sources depending on the amount and type of material they
                                     contain.

                         While the requirements set by the Atomic Energy Commission called
                         for NMMSS to be used to track sealed sources, these requirements were
                         not enforced. Separate and apart from NMMSS, the NRC funded the
                         creation of a registry of sealed sources based on independent contacts
                         with facilities. Although the establishment of this registry in the early
                         1970s marked an effort to track sealed sources, this effort was
                         discontinued in 1984 because of concerns over usefulness.




Page 4                                                                      Details of Findings
         In response to questions posed during the audit, the NMMSS operator
         stated that the system, as originally configured, could not be used to
         track the sources since the data was inadequate. However, in 1979, data
         concerning the export, import, and transfer of sealed sources involving
         foreign countries was entered into NMMSS. This "backfit tasking"
         involved the review of paper files and the creation of NMMSS
         transactions. A total reconciliation between the Registry and NMMSS
         did not occur. Since that time, there has been limited effort to track
         exported sealed sources owned by the U.S. Government.

         In addition, international agreements, negotiated with the countries
         receiving U.S. material, do not allow for continued monitoring and
         tracking of nuclear material after export. For example, Department
         officials in the Office of Nonproliferation Policy told us that the U.S.
         agreement with the European Atomic Energy Community
         (EURATOM), which includes 15 countries, does not require the
         member countries to report retransfers of U.S. provided materials from
         one EURATOM country to another. Thus, NMMSS data would not
         necessarily reflect the current location of materials. The U.S. General
         Accounting Office (GAO) also identified this problem in a 1994 report1.
         GAO stated that NMMSS international tracking capability was limited
         primarily because international Agreements for Cooperation do not
         require foreign countries to report data on the current locations of U.S.
         provided materials.

         Furthermore, international safeguards, that otherwise compensate for
         limited reporting of nuclear material transfers by foreign countries, may
         not fully cover sealed sources. For example, the Department has
         conducted periodic inventory reconciliations with each of the major
         U.S. trading partners including EURATOM, Canada, Japan, and
         Australia. NMMSS is updated to reflect the results of the
         reconciliations. However, a Departmental official told us that the
         nuclear material in sealed sources might not be included in the
         reconciliation depending on the amount of nuclear material in the
         source and the purpose for which it was transferred.




         1
         Nuclear Nonproliferation: U.S. International Nuclear Materials Tracking
         Capabilities Are Limited, December 1994, GAO/RCED/AIMD-95-5


Page 5                                                             Details of Finding
                          Finally, the U.S. relies on the IAEA to ensure that countries provided
                          with U.S. materials have adequate safeguards to prevent diversion of
                          such materials. However, the IAEA has expressed concern about the
                          lack of adequate regulatory oversight of sealed sources of radioactive
                          materials in many countries and is proposing a number of new
                          initiatives to help countries search for sources of radioactive materials.

Safeguards Concern Over   Accurate sealed source inventory data helps to ensure that the sources
Sealed Sources            are adequately protected and to plan for final disposition. While the
                          quantities of nuclear materials in sealed sources are small, in the wrong
                          hands, these sources could be misused. Moreover, there are risks of
                          accidental release. For example, in September 1987, a major city in
                          Brazil was accidentally contaminated by a medical radiation source.
                          This resulted in several deaths, the continuing health monitoring of
                          110,000 people, and the eventual destruction, for safety reasons, of 85
                          houses.

                          An accurate accounting of sealed sources provided to foreign entities is
                          also needed so the Department can plan for the final disposition of
                          those materials it still owns. Based on the data from the Sealed Source
                          Registry, it is entirely possible that 536 sealed sources could be
                          returned to the United States at some future point.


RECOMMENDATIONS           In our view, the resolution of this problem will require the participation
                          of senior managers in both the Office of Security and the National
                          Nuclear Security Administration. Therefore, we recommend that the
                          Director, Office of Security:

                             1. Continue the ongoing reconciliation to determine whether the
                                U.S. Government continues to own any of the sealed sources
                                located in foreign countries;

                             2. Update NMMSS to reflect the results of the ownership
                                determination and the other follow-up actions discussed below;
                                and,

                             3. Provide information on any sealed sources identified as U.S.
                                Government-owned to the Office of Environmental
                                Management for use in disposition planning.




Page 6                                                                        Details of Finding/
                                                                              Recommendations
                      We also recommend that the Deputy Administrator for Defense Nuclear
                      Nonproliferation within NNSA:

                         4. Work with the IAEA and other agencies to ensure that all sealed
                            sources produced by the U.S., even if they are no longer U.S.
                            property, are properly controlled; and,

                         5. Identify the current location and condition of any sealed sources
                            determined to be U.S. Government-owned.


MANAGEMENT REACTION   The Director, Office of Security and the Associate Administrator for
                      Management and Administration, NNSA commented on the draft of
                      this report.

                      The Director, Office of Security concurred with recommendations
                      regarding improvements needed to NMMSS data on sealed source
                      inventories. The Director agreed that "...some of the data
                      inconsistencies and insufficient reporting requirements cited in the
                      Draft Report, may impact upon the Department's ability to effectively
                      administer its nuclear materials management program."

                      The Associate Administrator for Management and Administration,
                      NNSA disagreed with recommendations directed to the Deputy
                      Administrator for Defense Nuclear Nonproliferation and some of the
                      conclusions in the draft report. Specifically, the Associate
                      Administrator noted that, under existing U.S. policy and international
                      agreements negotiated with foreign countries, the Department is not
                      required to monitor and track sealed sources after export. The
                      Associate Administrator pointed out that implementation of our
                      recommendations would require an Executive Policy change,
                      renegotiation of international agreements, and additional resources.
                      Finally, the Associate Administrator did not believe that
                      implementation of our recommendation to obtain information on the
                      current location and condition of sealed sources that remained U.S.
                      Government-owned was the responsibility of Defense Nuclear
                      Nonproliferation.


AUDITOR COMMENTS      The actions proposed by the Director, Office of Security are responsive
                      to our recommendations that are intended to improve NMMSS data on
                      exported sealed sources.




Page 7                                                  Recommendations and Comments
         Regarding the Associate Administrator's comments, we recognized in
         our report that international agreements negotiated with countries
         receiving U.S. nuclear material do not require the Department to
         monitor and track sealed sources after export. However, concern over
         the safety and control of sealed sources has increased since most of the
         international agreements were negotiated. In fact, the Associate
         Administrator recognized in his comments that "While it is a good idea
         to be aware of the locations and conditions of any material, it is not the
         current policy of the U.S. Government" (emphasis supplied).
         Furthermore, the international community, through the International
         Atomic Energy Agency, is moving towards actions that would improve
         regulatory control over sealed sources. Accordingly, we believe that it
         is appropriate for the Department to work with appropriate Government
         agencies, including State Department and the Nuclear Regulatory
         Commission, and through the International Atomic Energy
         Administration, to identify U.S. Government-owned sealed sources that
         were exported to foreign countries to assist the international community
         in improving controls over such material.




Page 8                                                                Comments
APPENDIX 1

                                           OTHER MATTERS


 ACCOUNTING ISSUES WITH NMMSS

 In addition to sealed sources, the U.S. provided both Government and commercial nuclear materials to
 foreign countries in the form of raw materials and fuel rods. These materials were exported to
 countries that had Agreements for Cooperation with the U.S. These agreements contained obligations
 to prevent the theft, diversion, or loss of nuclear material. During our review, we noted inventory data
 inconsistencies and errors that also raised concerns about the ability of the U.S. to determine the
 current location and condition of materials exported to foreign countries. For example,

         (1) As of August 2001, NMMSS carried positive material balances for 33 facilities that the
             Department and NRC had designated as inactive. These facilities were located in 11
             countries. While NMMSS had designated these facilities as inactive, we could not confirm
             that they were truly inactive, rather than just misclassified in NMMSS. However, the fact
             that NMMSS designated the facilities as inactive, while at the same time indicated that
             nuclear materials remained present at the facility, appeared anomalous.

         (2) A NMMSS-generated inventory report contained negative material balance records for 193
             foreign facilities in 28 countries. These balances, associated with 14 different types of
             material, would indicate that the Department received back more material than was
             originally provided. However, Department officials told us that this was unlikely. They
             believed, instead, that the use of incorrect ownership codes during the return process,
             combined with the flexibility given to receiving countries to transfer materials from facility
             to facility or country to country (as in the case with EURATOM) without U.S. notification,
             led to the negative balances.


 INTERNATIONAL SAFEGUARDS

 According to officials that we contacted at the Department of Energy's Office of Nonproliferation
 Policy, the Department of State, the NRC, and the IAEA, NMMSS data inaccuracies do not represent a
 concern over the risk of theft or diversion of materials. According to these officials, the international
 safeguards regime is structured such that materials are accounted for not by their ownership, but by the
 nonproliferation obligations that are attached to them at the time of transfer.

 For example, as previously noted, the U.S. periodically reconciles nuclear materials inventories with its
 major trading partners. These reconciliations are made for nuclear material inventories that are
 associated with nonproliferation obligations specified in the Agreements for Cooperation. Specifically,
 the reconciliations account for material transferred to another country that continue to have
 nonproliferation requirements associated with them, but do not specifically account for material by
 ownership, i.e., the reconciliations do not identify the material by ownership, or as U.S. Government-
 owned.

Page 9                                                                                         Other Matters
 Similarly, the IAEA conducts periodic inspections observing inventories for such obligated materials
 and maintains an inventory database that is used to ensure that member countries have appropriate
 safeguards over nuclear material in their country, regardless of ownership. However, we did not
 independently review the controls over the IAEA inventory database. Additionally, reciprocal visits
 are made to foreign facilities approved for U.S. exports of nuclear material by U.S. teams composed
 of representatives of the Departments of Energy, Defense, and State, and the NRC.

 Department officials noted that NMMSS cannot be accurate in tracking the location and condition of
 U.S. Government-owned materials exported to foreign countries because the international
 agreements for cooperation do not provide for the foreign countries to report to NMMSS about intra-
 country transfers, burn up of material, etc.

 We are not recommending actions to correct NMMSS inventory balances for U.S. Government-
 owned nuclear materials.




Page 10                                                                                   Other Matters
APPENDIX 2


             COUNTRIES PROVIDED WITH U.S. SEALED SOURCES
                       CONTAINING PLUTONIUM




               Austria           Netherlands
               Australia         Norway
               Brazil            New Zealand
               Canada            Pakistan
               Taiwan            Philippines
               Colombia          South Africa
               Finland           Switzerland
               France            Israel
               West Germany      Sweden
               Greece            Italy
               Ireland           Thailand
               India             Turkey
               Iran              United Kingdom
               Japan             Uruguay
               South Korea       Venezuela
               Malaysia          Vietnam
               Mexico




Page 11                                        Sealed Sources In Foreign Countries
APPENDIX 3
SCOPE         The audit was conducted from October 2001 through January 2002 at
              Departmental Headquarters in Germantown, MD. We also interviewed
              officials at the NRC, the State Department, the IAEA, and the
              contractor responsible for operating the NMMSS.

METHODOLOGY   To accomplish the audit objective we:

                 •   Reviewed Departmental requirements for the control and
                     accountability of nuclear materials.

                 •   Reviewed international agreements regarding conditions for the
                     transfer and control of nuclear materials.

                 •   Analyzed NMMSS data as of August 2001 to determine the
                     amount and types of nuclear materials located in foreign
                     countries. This information was also used to establish the
                     number of negative records included in the database.

                 •   Compared NMMSS data with information from the Sealed
                     Source Registry to determine if NMMSS contained the
                     inventory of U.S. Government-owned sealed sources provided
                     to foreign countries.

                 •   Held discussions with Department, State Department, NRC, and
                     IAEA representatives to determine whether NMMSS
                     information is relied upon to control and account for nuclear
                     materials provided by the U.S. Government to foreign countries.

                 •   Reviewed available documentation to determine if performance
                     measures associated with the accuracy of data in NMMSS or the
                     control and accountability of the Department's loaned or leased
                     nuclear materials existed.

              As noted in the report, we found erroneous and inconsistent data in
              NMMSS and the Sealed Source Registry. We did not, therefore, rely
              on NMMSS or the Registry to draw conclusions about nuclear materials
              quantities, locations, or movement. Instead, we used NMMSS and
              Registry data to identify issues that needed further follow-up. The audit
              was conducted in accordance with generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Because the review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of audit. Both the Office
              of Security and NNSA waived an exit conference.

Page 12                                                    Scope and Methodology
APPENDIX 4

                                            PRIOR REPORTS



          •   Accounting for Government-Owned Nuclear Materials Provided to Non-Department
              Domestic Facilities, (DOE/IG-0529). The Department could not fully account for U.S.
              Government-owned nuclear materials provided to domestic licensees. Specifically,
              according to NMMSS records (1) substantial amounts of nuclear materials were located at
              two licensed facilities that no longer existed, (2) several licensee facilities had balances that
              were not logical and could not be adequately explained or reconciled, and (3) records were
              incomplete in that they did not contain information on all Government-owned nuclear
              materials provided to licensees. These problems occurred because the Department did not
              provide adequate oversight of the system. Without accurate NMMSS records, the
              Department cannot effectively administer the nuclear materials management program.

          •   Nuclear Nonproliferation: U.S. International Nuclear Materials Tracking Capabilities Are
              Limited, (GAO/RCED/AIMD-95-5). The United States relies primarily on the NMMSS to
              track the nuclear materials exported to foreign countries. However, this system does not
              have all the information needed to track the specific current location (facility) and status of
              all nuclear materials of U.S. origin that are supplied to foreign countries. The system does
              not contain this information primarily because the amounts, types, and reliability of data
              contained in the NMMSS depend largely on the data required to be reported under
              international agreements for peaceful nuclear cooperation, as well as on foreign countries'
              and U.S. and foreign facilities willingness to report complete and accurate data.




Page 13                                                                                          Prior Reports
Page 14   Management Comments
Page 15   Management Comments
Page 16   Management Comments
Page 17   Management Comments
Page 18   Management Comments
Page 19   Management Comments
                                                                               IG Report No. :DOE/IG-0546

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
